January 30, 2004
Report No. 04-007


FDIC-Sponsored Dental Insurance
Eligibility and Premium Payments




             AUDIT REPORT
                                                 TABLE OF CONTENTS




BACKGROUND.............................................................................................................................1

RESULTS OF AUDIT....................................................................................................................2

FINDING AND RECOMMENDATIONS....................................................................................3

          DENTAL INSURANCE ELIGIBILITY RECORDS INCLUDE SOME
          INELIGIBLE INDIVIDUALS AND ERRORS................................................................3
               Dental Insurance Eligibility Requirements
                and Timing of Coverage ..........................................................................................3
               Types of Eligibility and Payment Exceptions Identified ............................................3
               Conclusion and Recommendations ...........................................................................5

CORPORATION COMMENTS AND OIG EVALUATION......................................................6


APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY..............................................8

APPENDIX II: CORPORATION COMMENTS......................................................................10

APPENDIX III: MANAGEMENT RESPONSES TO RECOMMENDATIONS ...................13


TABLES

Table 1: Connecticut General Annual Dental Insurance Premiums
             Calendar Years 2002 and 2003...............................................................................1

Table 2: Deceased Retirees Carried as Dental Plan Participants as of August 9, 2003..............3

Table 3: Overpayments for Premiums for Deceased FDIC Retirees ..........................................4

Table 4: Retirees’ Dates of Death and Dates of Life Insurance Claims ......................................5
The FDIC’s Division of Administration (DOA) is responsible for managing the dental plan as part of
the Corporation’s Flexible Cafeteria Benefits Program (Flex Plan). The FDIC contracted with
Benefits Allocation Systems (BAS) in 2002 to implement and administer the Flex Plan. BAS
processes enrollments; provides customer service; maintains dental insurance data for current
employees, retirees, and their dependents; and prepares reports with enrollment statistics for the
FDIC.


RESULTS OF AUDIT

Overall, for the period January 2002 through October 2003, the FDIC’s dental insurance eligibility
records accurately reflected the current and prior FDIC employees entitled to dental insurance
coverage under FDIC policy. We noted, however, that certain discrepancies in BAS’s database
resulted in the FDIC overpaying dental insurance premiums by about $110,295. We are
recommending that the FDIC recover the overpayments and assess the adequacy of internal controls
over eligibility records and premium payments.




                                                 2
                                    FINDING AND RECOMMENDATIONS


DENTAL INSURANCE ELIGIBILITY RECORDS INCLUDE SOME INELIGIBLE
INDIVIDUALS AND ERRORS

The BAS database for the FDIC’s dental insurance plan includes individuals ineligible for dental plan
coverage, some duplicate individuals, and other errors. Based on our limited audit procedures, we
could not determine the specific cause for the discrepancies, although it appears that monitoring and
verification procedures to detect inaccurate records could be improved. We estimated that the FDIC
overpaid $110,295 in dental insurance premiums as a result of eligibility and other errors that were
not detected and resolved in the routine processing of the FDIC’s dental insurance premium
payments.

Dental Insurance Eligibility Requirements and Timing of Coverage

The FDIC documents dental plan eligibility in an annually prepared Summary Plan Description
(SPD). The SPD describes who is covered, when coverage begins, benefit choices, covered expenses,
plan limitations, and when coverage terminates for eligible employees and their dependents. In
general, all FDIC employees and dependent family members are eligible for dental plan coverage.
Coverage begins on the date of hire/appointment and ends on the last day of employment with the
FDIC. Upon retirement from the FDIC, retirees and their dependents continue to be covered as long
as the FDIC continues to provide the benefit.

Types of Eligibility and Payment Exceptions Identified

Premiums Paid for Deceased Retirees: We determined that the FDIC continued to pay dental
insurance premiums for 53 deceased FDIC retirees after notifications of death had been recorded with
the Social Security Administration (SSA). 1 Using the retiree enrollment data from the FDIC
biweekly pay period number 15, we matched the retirees’ social security numbers with the SSA’s
Death Master File of inactivated social security numbers. The results identified 53 deceased FDIC
retirees as active dental plan participants during pay period number 15. Dates of death for the retirees
ranged from 1992 to 2003 (see Table 2).

Table 2: Deceased Retirees Carried as Dental Plan Participants
         as of August 9, 2003
 Year                  2003 2002 2001 2000 1999 1997                                     1996      1995     1994      1992
 Deceased Retirees      11    14      9      4       3      3                             2         3        3         1
Source: The 53 deceased retirees are shown by the year of death recorded in the SSA Death Master File.



We estimated that the FDIC overpaid $91,404 in dental insurance premiums for the 53 deceased
retirees. We calculated the estimated overpayment by applying the 1992-2003 premium rates to the
1
    The Death Master File from the Social Security Administration (SSA) contains over 75 million records of deaths that
    have been reported to the SSA. The file is used by leading financial and credit firms as well as government agencies to
    match records and prevent identity fraud and to comply with the USA PATRIOT Act, Pub. L. No. 107-56 (2001).

                                                              3
number of billing periods between the date of death and October 31, 2003. Table 3 shows the
breakdown by year of the overpayments.

                            Table 3: Overpayments for Premiums for
                                     Deceased FDIC Retirees
                                                     Estimated Premium
                                   Period              Overpayments
                               January 2002 -
                                October 2003                      $58,285
                                    2001                           $8,784
                                    2000                           $6,186
                                    1999                           $5,227
                                  Pre-1999                        $12,922
                                    Total                         $91,404
                            Source: SSA Death Master File and applicable
                            premium rates provided by the FDIC DOA.

The DOA indicated that claims against FDIC-provided life insurance triggered the removal of retirees
from the FDIC dental insurance coverage. Conceptually, DOA’s underlying assumption is that
beneficiaries will file life insurance claims with the FDIC for deceased FDIC retirees and that once
deaths have been verified through processing the claims, the deceased participants can be removed
from dental insurance eligibility. Although we did not extensively review the controls used to
monitor eligibility, we noted that 32 of the 53 deceased retired employees had FDIC life insurance
and that claims had been filed for 11 of the 32 retirees. None of the 11 retirees had been removed
from the dental plan eligibility records or premium billing invoices. Life insurance claims were not
filed for the remaining 21 retirees. Table 4 shows the dates of death and the dates of life insurance
claims made for the 11 deceased retirees.




                                                    4
             Table 4: Retirees’ Dates of Death and Dates of Life Insurance Claims
                        Date of Death                     Date of Life Insurance Claim
                February 1994                           April 1994
                October 1994                            February 1995
                July 1995                               September 1995
                September 1996                          November 1996
                November 1996                           March 1997
                July 1997                               August 1997
                July 2002                               September 2002
                August 2002                             September 2002
                December 2002                           March 2003
                January 2002                            May 2002
                July 2003                               August 2003
             Source: The FDIC’s third-party administrator, BAS, contacted the FDIC’s life insurance
             company, Met Life, to obtain life insurance claim information. We obtained dates of
             death from the SSA Death Master File.

Duplicate Premium Payments for Current Plan Participants: We determined that the FDIC made
duplicate premium payments for 14 dental plan participants. Our computer matching procedures
showed that the participants were reflected twice on Connecticut General premium statements for
calendar years 2002 and 2003. The errors apparently occurred during the manual input of data. We
notified BAS of the duplicate records and, with BAS’s assistance, we determined that the FDIC
overpaid $10,991 in duplicate premiums.

BAS Processing Errors for Current Employees: BAS processing errors resulted in the FDIC
overpaying $7,900 for calendar year 2003 premiums. These errors occurred because BAS did not
correctly modify eligibility records in response to the FDIC notifications to terminate coverage for
eight employees because of separation from the FDIC.

Conclusion and Recommendations

Through a combination of eligibility and other errors, the FDIC’s premium payments to Connecticut
General for the period 1992 through October 2003 included overpayments totaling approximately
$110,295. As discussed earlier, our limited audit procedures prevented us from determining specific
causes for these errors. However, it appears that DOA procedures for ensuring the accuracy of dental
plan eligibility records can be improved. Further, review of the internal controls associated with
administering the dental insurance premiums may be helpful in identifying methods for preventing
inaccurate records and payments. Accordingly, we recommend that the Director, Division of
Administration:

(1) Disallow the estimated $91,404 in questioned dental insurance premium payments for deceased
    FDIC retirees.

(2) Disallow the $10,991 in questioned duplicate dental insurance premium payments.


                                                        5
(3) Disallow the $7,900 in questioned overpayments for plan participants who separated from the
    FDIC.

(4) Review dental insurance administration procedures and determine where improvements to
    internal controls can be established and implemented for ensuring accurate records and premium
    payments. Such controls could include periodically matching and reconciling eligibility records
    and appropriate personnel-related databases.


CORPORATION COMMENTS AND OIG EVALUATION

On January 28, 2004, we received the DOA Director’s written response, dated January 9, 2004, to
the draft report. The response is presented in Appendix II to this report. DOA management
concurred with the recommendations and researched the estimated overpayments. DOA reported
that the actual overpayments varied from our estimates, and we have modified the amounts
originally contained in our draft report to reflect the actual amounts. In response to our results,
DOA has already taken several corrective actions and plans to complete others by March 31, 2004.
The following summarizes management’s responses to our recommendations.

Recommendation 1: Disallow the estimated $91,404 in questioned dental insurance premium
payments for deceased retirees.

DOA concurred with this recommendation. DOA determined that the actual overpayment for the
period January 2002 through October 2003 was $58,285, $3,660 less than the $61,945 estimated in
our draft report. DOA’s revised calculations show the total amount overpaid for deceased retirees
to be $91,404; $58,285 related to January 2002 through October 2003 and $33,119 related to dates
preceding January 2002. BAS terminated coverage retroactive to the date of death or January 1,
2002, whichever is later, for each deceased retiree, and recovered the $58,285 from CIGNA. The
remaining $33,119 will be reviewed by DOA’s Acquisition Services Branch to determine whether
the costs are allowable. Once a decision is made, DOA will either disallow and pursue recovery of
any amounts not authorized under the contract or not pursue the amounts questioned if the costs are
deemed allowable. DOA’s review and recovery should be completed by March 31, 2004.

Management’s planned actions are responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective actions have been completed and are effective.

Recommendation 2: Disallow the $10,991 in questioned duplicate dental insurance premiums
payments.

DOA concurred with this recommendation and determined that the actual overpayment was
$10,991; $159 less than the $11,150 estimated in our draft report. DOA’s recovery of the overpaid
amount should be completed by February 27, 2004.

Management’s planned actions are responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective actions have been completed and are effective.


                                                  6
Recommendation 3: Disallow the $7,900 in questioned overpayments for plan participants who
separated from the FDIC.

DOA concurred with this recommendation. This overpayment resulted from an error in BAS’s
programming that occurred in 2001. DOA stated that it had recovered the $7,900 from CIGNA,
$826 more than the $7,074 estimated in our draft report. The OIG has not yet confirmed this
recovery.

Management’s action was responsive to the recommendation. The recommendation is resolved but
will remain undispositioned and open until we have determined that agreed-to corrective actions has
been completed and is effective.

Recommendation 4: Review dental insurance administration procedures and determine where
improvements to internal controls can be established and implemented for ensuring accurate records
and premium payments. Such controls could include periodically matching and reconciling
eligibility records and appropriate personnel-related databases.

DOA concurred with this recommendation. DOA is revising its procedures related to the payments
of dental premiums and establishing additional controls to ensure the accuracy of dental insurance
records, all of which should be completed by March 31, 2004. Such controls include:

   •   matching SSA death information to enrollment files electronically,
   •   sweeping enrollment files to prevent duplicate social security numbers,
   •   instituting system controls to prevent duplicate entries, and
   •   documenting quality control procedures.

Management’s planned actions are responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective actions have been completed and are effective.




                                                 7
                                                                                                        APPENDIX I



                             OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine whether the FDIC’s dental insurance eligibility records
accurately reflect the current and prior FDIC employees entitled to dental insurance coverage under
FDIC policy. In fulfilling our objective, we gained an understanding of the Corporation’s policies
and procedures for (1) monitoring eligibility and (2) ensuring the accuracy of premium payments to
Connecticut General. We limited our audit procedures to performing data matches to identify
eligibility and enrollment discrepanc ies. Throughout the audit, we provided interim audit
conclusions to enable the FDIC to initiate corrective actions, where applicable. Our audit results
take into consideration any such FDIC actions on audit findings through October 2003.

The scope of our work covered dental plan activity from January 2002 through October 2003. To
test the accuracy of dental plan eligibility records, we chose pay period 15, the most recent 2003
FDIC biweekly payroll period for which payroll processing had been completed, including
corrections and modifications. Pay period 15 covered July 27 through August 9, 2003. As of
August 2003, 5,466 current FDIC employees and 2,772 FDIC retirees were enrolled in the plan. Our
computerized queries identified enrollment discrepancies as of pay period 15 and included
discrepancies carried from prior pay periods. Therefore, we did not test the preceding 14 pay periods
in calendar year 2003 or the 26 pay periods in calendar year 2002.

Details on our audit scope and methodology follow:

•   Deceased Retirees. We obtained the Death Master File from the Social Security Administration
    to use as a source of inactivated social security numbers due to deaths. The SSA Death Master
    File provides death certificate issuance dates and death verifications by the deceased persons’
    families. We used computerized matching procedures to compare the FDIC database of retirees
    shown as active participants in the dental plan to the SSA’s database of inactivated social
    security numbers.

•   Duplicate Premium Payments. We used computerized matching procedures to identify
    Connecticut General premium payments that were paid twice. BAS provided the data that the
    FDIC used for premium statement purposes. We queried that database for the social security
    numbers occurring more than once for current FDIC employees and retirees.

•   BAS Processing Errors. We generated a computerized query that identified any FDIC current
    employee participating in the dental plan, but for whom no payroll activity occurred in pay
    period 15. The payroll activity was retrieved from the FDIC’s Payroll Bridge file, 2 which is a
    compilation of FDIC payroll transactions processed through the National Finance Center 3 each
    pay period. Our query compared the Payroll Bridge file data to the Connecticut General
    premium statement for pay period 15. We contacted BAS about resultant discrepancies and,
    together with BAS, reviewed processing errors requiring corrections to the FDIC’s prior billings.

2
  The Payroll Bridge file contains all payroll data for the Corporation that has been annotated and converted to a format
  that is compatible with the general ledger system.
3
  The U. S. Department of Agriculture’s National Finance Center provides personnel and payroll services for the FDIC.


                                                            8
                                                                                        APPENDIX I


   BAS determined the questioned cost of $7,900 by identifying the related processing errors and
   making the necessary corrections.

We reviewed applicable laws and regulations and concluded that the FDIC’s dental plan eligibility
rules are not inconsistent with the requirements of 5 U.S.C. §§ 8901 (note) and 8914 and subpart
C of 5 C.F.R. § 890 pertaining to the Federal Employees Health Benefits Program. We gained an
understanding of the internal control activities used by the FDIC to monitor dental insurance
eligibility records. Additionally, our audit procedures detected no fraudulent or illegal acts. Further,
we did not assess whether the Corporation established performance measures related to
administration of the dental insurance plan because doing so was not material to our audit objective.

We performed our audit from August 26, 2003 through October 31, 2003 in accordance with
generally accepted government auditing standards.




                                                   9
                       Appendix II



CORPORATION COMMENTS
     APPENDIX II




11
     APPENDIX II




12
                                                                                                                                                     APPENDIX III

                                     MANAGEMENT RESPONSES TO RECOMMENDATIONS
     This table presents the management responses that have been made on recommendations in our report and the status of recommendations
     as of the date of report issuance. The information in this table is based on management’s written response to our report.


                                                                                                                                                                  Open
      Rec.                                                                            Expected              Monetary       Resolveda :     Dispositionedb :         or
     Number              Corrective Action: Taken or Planned/Status                 Completion Date         Benefits       Yes or No         Yes or No            Closedc

            1        DOA disallowed the estimated $91,404 in dental                  March 31, 2004           $91,404          Yes                No               Open
                     insurance premium payments for deceased FDIC
                     retirees and will make a determination on allowability
                     of payments.
            2        DOA disallowed the $10,991 in duplicate dental                 February 27, 2004         $10,991          Yes                No               Open
                     insurance premiums payments and will seek recovery
                     of that amount.
            3        DOA stated that it had recovered the $7,900 in                 December 22, 2003          $7,900          Yes                No               Open
                     overpayments for plan participants who separated from
13




                     the FDIC.
            4        DOA is in the process of reviewing and implementing             March 31, 2004            None            Yes                No                Open
                     a number of measures to improve dental insurance
                     administration procedures and is implementing
                     improvements to internal controls to ensure accurate
                     records and premium payments.



     a
         Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                    (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
                    (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                        management provides an amount.

     b
       Dispositioned – The agreed-to corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
     implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
     recommendation.

     c
         Once the OIG dispositions the recommendation, it can then be closed.
